      Department of Homeland Security




         Federal Emergency Management Agency’s 

      Management Letter for FY 2011 DHS Consolidated 

               Financial Statements Audit 





OIG-12-46                                      March 2012

                                                           Office of Inspector General

                                                           U.S. Department of Homeland Security
                                                           Washington, DC 20528




                                       March 7, 2012

                                            Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report presents the Federal Emergency Management Agency’s Management Letter
for FY 2011 DHS Consolidated Financial Statements Audit. It contains observations
related to internal controls that were not required to be reported in the financial
statements audit report. The independent public accounting firm KPMG LLP (KPMG)
performed the integrated audit of DHS’ FY 2011 financial statements and internal control
over financial reporting and prepared this management letter. KPMG is responsible for
the attached management letter dated February 3, 2012 and the conclusions expressed in
it. We do not express opinions on DHS’ financial statements or internal control or
provide conclusions on compliance with laws and regulations.

The recommendations herein have been discussed in draft with those responsible for
implementation. We trust this report will result in more effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to
the preparation of this report.



                                            Anne L. Richards
                                            Assistant Inspector General for Audits
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006
February 3, 2012


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security Federal Emergency Management Agency
Washington, DC


Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011, and statement of custodial activity for the year then ended,
based on the criteria established in Office of Management and Budget, Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A.
Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2011 financial statements and internal control over financial
reporting. In addition, the FY 2011 DHS Secretary’s Assurance Statement states that the
Department was unable to provide assurance that internal control over financial reporting was
operating effectively at September 30, 2011. We have not considered internal control since the
date of our Independent Auditors’ Report.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough
to merit attention by those charged with governance. In accordance with Government Auditing
Standards, our Independent Auditors’ Report, referred to in the paragraph above, included internal
control deficiencies identified during our audit, that individually, or in aggregate, represented a
material weakness or a significant deficiency.
The Federal Emergency Management Agency (FEMA) is a component of DHS. We noted certain
matters, related to FEMA that are summarized in the Table of Financial Management Comments
on the following pages, involving internal control and other operational matters that are less severe
than a material weakness or a significant deficiency, and consequently are reported separately to
the Office of Inspector General (OIG) and FEMA management in this letter. These comments and
recommendations, all of which have been discussed with the appropriate members of management,
are intended to improve internal control or result in other operating efficiencies. The disposition of
each internal control deficiency identified during our FY 2011 audit – as either reported in our
Independent Auditors’ Report, or herein – is presented in Appendix A. The

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
status of internal control deficiencies identified during our FY 2010 audit is presented in Appendix
B. Our findings related to information technology systems security have been presented in a
separate letter to the OIG and the FEMA Chief Financial Officer and Chief Information Officer.
We would be pleased to discuss these comments and recommendations with you at any time. This
report is intended for the information and use of DHS’ and FEMA’s management, the DHS Office
of Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and the
Government Accountability Office, and is not intended to be and should not be used by anyone
other than these specified parties.


Very truly yours,
                             Federal Emergency Management Agency
                            Table of Financial Management Comments
                                       September 30, 2011

             TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)

Comment 
                                                                                      Page(s)
             Subject
Reference


FMC 11-01    Deficiencies in Development and Application of Policies Related to the Non­         2
             Grant, Non-Mission Assignment, Non-System-Generated Accounts Payable
             Accrual
FMC 11-02    Inability to Closeout Assistance to Firefighter Grants                              2
FMC 11-03    Deficiencies in Development of Mission Assignment Policies and Procedures          2-3
FMC 11-04    Lack of Certain Documentation Related to Compliance with the Improper               3
             Payments Elimination and Recovery Act of 2010
FMC 11-05    Inability to Link Systems to Significant Grant Programs                            3-4
FMC 11-06    Deficiencies in the Preparation and Review of the Government Accountability         4
             Office (GAO) Financial Audit Manual 2010 – Checklist for Federal Accounting
FMC 11-07    Inaccuracy of Claims’ Loss Reserves at Selected Insurance Companies that           4-5
             Participate in FEMA’s National Flood Insurance Program (NFIP)
FMC 11-08    Internal Control Deficiencies over Claims Paid at Selected Insurance Companies      5
             that Participate in FEMA’s NFIP
FMC 11-09    Deficiencies in the Monthly Spend Plan Reconciliation Preparation Process           6
FMC 11-10    Deficiencies Identified in the General Ledger Chart of Accounts and Transaction     6
             Codes
FMC 11-11    Improvements Needed in Review and Recording of Year-end Mission                     7
             Assignment Accrual
FMC 11-12    Improvements Needed in Management’s Review of Grant Data and Automated             7-8
             Reconciliations in Grant Accrual Models
FMC 11-13    Issues Identified in Journal Voucher (JV) Testwork                                 9-10
FMC 11-14    Compliance with the Prompt Payment Act                                              10
FMC 11-15    Deficiencies in Verification and Collection of Performance Measurement Data         11
             for the Annual Financial Report’s (AFR) Management’s Discussion and Analysis
FMC 11-16    Deficiencies in the Legacy FEMA Grant Accrual Methodology                          11
FMC 11-17    Deficiencies over the NFIP Treasury Information Executive Repository JV           11-12
             Adjustments
FMC 11-18    Lack of Communication Regarding the Existence of the DHS Office of Inspector        12
             General Fraud Hotline




                                            APPENDIX

Appendix     Subject                                                                           Page(s)

   A         Crosswalk – Financial Management Comments to Active Notices of Finding and        13-14
             Recommendation (NFRs)
   B         Status of Prior Year NFRs                                                         15-16




                                                   1

                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2011


FMC 11-01 – Deficiencies in Development and Application of Policies Related to the Non-Grant,
Non-Mission Assignment, Non-System-Generated Accounts Payable Accrual (NFR No. 11-02)

       Our review of the accounts payable accrual model methodology as of December 31, 2010,
       revealed that an accrual is not generated for the following fund codes and Budget Object Codes
       (BOC), and the Intergovernmental Accrual Process does not specifically address the accrual
       process for the following funds:
       �	 Fund codes 79, 87-89, 8C, 9B, 9C (all related to limited and no-year funds for the Chemical
           Stockpile Emergency Preparedness Program)
       �	 Fund code H7 (related to State and Local Programs Fund - Public Safety Interoperable
           Communications)
       �	 BOC 2503 (Delegation of Authority – Disaster Unemployment Assistance) and 2504
           (Delegation of Authority – Crisis Counseling Assistance).

       Recommendation:
       We recommend that Federal Emergency Management Agency (FEMA) incorporate an
       assessment of these BOCs and funds into the quarterly accounts payable accrual process and
       document the assessment.

FMC 11-02 – Inability to Closeout Assistance to Firefighter Grants (NFR No. 11-04)

       During our testwork performed over Assistance to Firefighter Grants (AFG), we noted that
       system closeout issues continue to exist in fiscal year (FY) 2011. Per discussion with Grant
       Programs Directorate personnel, the system problems with the implementation of the SF 425
       continued throughout most of FY 2011. Although a manual process was implemented in June
       2011, at that time, only grant awards from FY 2002 through FY 2004 were being closed out
       manually. Continued issues prevented closeouts related to grant awards from FY 2005 through
       FY 2009. (The award process for AFG takes place during the fourth quarter of the fiscal year; as
       such, FY 2010 AFG do not require closeout in the current fiscal year.)

       Recommendations:
       We recommend that FEMA:
       �	 Implement planned modifications to the AFG system that are designed to enable the closeout
          of AFG awards from FY 2007 – FY 2010.
       �	 Utilize the established manual closeout process for AFG awards prior to FY 2007 and for
          subsequent awards until the system capability exists to complete closeouts.

FMC 11-03 – Deficiencies in Development of Mission Assignment Policies and Procedures (NFR
No. FEMA 11-05)

       Under Standard Operating Procedures (SOP) Number 2600-007, Financial Reporting of Mission
       Assignments dated March 17, 2011, FEMA requires mission assignment-related Undelivered
       Order (UDO) balances to be validated annually as of June 30th of each year. In the event an Other
       Federal Agency (OFA) is non-responsive to the validation request, FEMA notifies the OFA that
       the close-out process will be initiated and funds will be de-obligated unless sufficient supporting
       documentation is received. FEMA, however, does not designate a timeline as to when de-
       obligation will take place to ensure the mission assignment (MA) UDO balance is validated or



                                                   2

                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2011


       closed out prior to year-end. The policy calls for UDOs to be reviewed but not validated at other
       times throughout the year.

       Recommendation:
       We recommend that FEMA designate, as part of its annual validation process, a timeline as to
       when de-obligation will take place when the OFA is non-responsive to ensure the MA UDO
       balance is validated or closed out prior to year-end.

FMC 11-04 – Lack of Certain Documentation Related to Compliance with the Improper Payments
Elimination and Recovery Act of 2010 (NFR No. FEMA 11-08)

       In FY 2011, we reviewed FEMA’s risk assessment approach and test plan for each of the
       programs that were determined to be of significant risk for improper payments. Based on our
       review, we determined that FEMA used a multi-year sampling approach for the Public Assistance
       Grant Program, the Homeland Security Grant Program, and the Transit Security Grant Program
       given the large size of the programs. Because this approach was used, FEMA was unable to
       extrapolate the sample results over the entire population and could not provide results within the
       required 2.5% precision level. For this approach to be considered compliant with the Improper
       Payments Elimination and Recovery Act of 2010 and Office of Management and Budget (OMB)
       Circular No. A-123, FEMA must obtain approval from OMB. FEMA did not obtain official
       written approval until September 23, 2011, after testing had begun.

       The plan approved on September 23, 2011 is a multi-year testing plan that is effective for the
       Homeland Security Grant Program and the Transit Security Grant Program through FY 2013 and
       for the Public Assistance Grant Program through FY 2014.

       Recommendation:
       No recommendation is necessary as FEMA management implemented corrective action during
       the fiscal year.

FMC 11-05 – Inability to Link Systems to Significant Grant Programs (NFR No. FEMA 11-11)

       We requested that FEMA provide an analysis to demonstrate the amount of UDOs flowing
       through each grant system during FY 2011. We asked that the analysis include Catalog of
       Federal Domestic Assistance Number, Grant Program, Responsible Directorate, Award System,
       Monitoring System, Grant Identifier, Obligation System, Obligation Amount, Payment System,
       Payment Amount, and the UDO reconciled balance.

       We noted that a spreadsheet was created based on our request; however, FEMA was unable to
       identify the appropriate monitoring system for each grant program. Additionally, FEMA does not
       maintain a database that links grant systems to significant grant programs to facilitate the
       assessment of system-based controls over obligations and payments related to these programs.

       Recommendations:
       We recommend that FEMA:
       �	 Develop and implement a monitoring control to ensure that the currently developed
          spreadsheet is updated timely when changes occur.



                                                   3

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2011


       �	 Dedicate the resources to implement a process to monitor which grant programs are flowing
          through which grant systems in order to facilitate the assessment of system-based controls
          over obligations and payments related to these programs.

FMC 11-06 – Deficiencies in the Preparation and Review of the Government Accountability Office
(GAO) Financial Audit Manual 2010 – Checklist for Federal Accounting (NFR No. FEMA 11-12)

      Upon independent review of FEMA’s initial GAO Financial Audit Manual 2010 – Checklist for
      Federal Accounting (Checklist) as of March 31, 2011, we determined FEMA did not properly
      complete all questions in the Checklist, as follows:
      �	 Responses to 13 questions were not consistent with the accounting policies and operations
         currently implemented at FEMA.
      �	 Various explanations provided in the Checklist required more information per the Checklist
         instructions.
      �	 Four questions were answered when the index indicated “N/A,” and per the Checklist
         instructions, only items considered applicable in the index should be answered.

       Although the Checklist was reviewed for completeness, accuracy, and validity and approved by
       FEMA management in accordance with the FY 2011 DHS Office of Financial Management
       (OFM) Component Requirements Guide for Financial Reporting, inconsistencies in the Checklist
       noted were not identified by the review.

       Recommendation:
       We recommend that FEMA develop and implement SOPs over the annual preparation and review
       of the Checklist.

FMC 11-07 – Inaccuracy of Claims’ Loss Reserves at Selected Insurance Companies that
Participate in FEMA’s National Flood Insurance Program (NFIP) (NFR No. FEMA 11-14)

       We selected nine insurance companies and tested a sample of 65 loss reserves reported by these
       companies as of March 31, 2011. During this testing, we noted the following errors:
       �	 For five sample items, the loss reserve recorded in the insurance company NFIP claims
          system was not updated appropriately to reflect additional adjustor reports and/or claim
          payments, causing the reserves to be misstated as of March 31, 2011.
       �	 For three sample items, the claim was not closed in a timely manner which overstated the
          reserve balance as of March 31, 2011.
       �	 For one sample item, the claim was closed without payment and then reopened in order to
          pay adjustor fees. However, the claim was not re-closed after the fees were paid, which in
          turn overstated reserves.

       Additionally, we selected nine insurance companies and tested a sample of 65 loss reserves
       reported by these companies as of August 31, 2011. During this testing, we noted the following
       errors:
       �	 For one sample item, the reserve was not updated to accurately reflect receipt of the
           preliminary report and the payment of an advance, which caused the reserve to be understated
           as of August 31, 2011.




                                                  4

                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2011


       �	 For one sample item, the loss reserve recorded in the insurance company NFIP claims system
          was not updated appropriately to reflect the final report, causing the reserves to be overstated
          as of August 31, 2011.

       Recommendations:
       We recommend that FEMA:
       �	 Follow-up with each of the insurance companies with exception to determine that appropriate
          corrective action has been implemented to address the exceptions noted.
       �	 Provide increased oversight to ensure the specific and consistent documentation of the
          established loss reserve and subsequent adjustment to the loss reserve per claim at the
          insurance companies participating in the NFIP is maintained and that current loss reserve
          information is communicated to the third-party service provider timely.

FMC 11-08 – Internal Control Deficiencies over Claims Paid at Selected Insurance Companies that
Participate in FEMA’s NFIP (NFR No. FEMA 11-15)

       We selected nine insurance companies and tested a sample of 270 claim payments across those
       companies covering the period October 1, 2010 to March 31, 2011. During this testing, we noted
       the following errors:
       �	 For two sample items, the claim payment was not recorded in the correct fiscal year.
       �	 For eight sample items, the loss reserve related to the claim transaction was not updated
           properly to reflect claim payments or additional adjustor reports, causing reserves to be
           misstated.
       �	 For one sample item, the deductible was not properly applied to a contents claim.
       �	 For two sample items, the claim was not properly closed after the policy was closed and
           rewritten.
       �	 For one sample item, the claim payment made to the insured did not match the total claim
           payment on the final report, causing the insured to be overpaid.

       Additionally, we tested a sample of 135 claim payments across the nine insurance companies
       covering the period April 1, 2011 to June 30, 2011. During this testing, we noted the following
       errors:
       �	 For three sample items, the claim payment made to the insured did not match the total claim
           payment on the final report, causing the insured party to be overpaid or underpaid.

       Recommendations:
       We recommend that FEMA:
       �	 Follow-up with each of the insurance companies with exceptions to determine whether
          appropriate corrective actions have been implemented to address the exceptions noted.
       �	 Provide increased oversight to insurance companies participating in the NFIP to ensure
          claims files are being processed and reviewed in accordance with NFIP guidelines before
          approval and issuance of claim payments and to ensure the specific and consistent
          establishment and reporting of loss reserves and subsequent adjustments to the loss reserves.




                                                   5

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2011


FMC 11-09 – Deficiencies in the Monthly Spend Plan Reconciliation Preparation Process (NFR No.
FEMA 11-17)

       Based on our FY 2011 walkthrough procedures performed over the Monthly Spend Plan
       Reconciliation preparation process, we noted the following deficiencies in the design:
       �	 A lack of oversight exists over the contractors who extract the actual spending data from the
          general ledger (GL). It is uncertain whether they are pulling the correct information as the
          reviewer does not perform necessary oversight of the procedures taken by the contractors to
          extract the data from the GL.
       �	 The Budget Manual, which was issued during FY 2011, describes that when the review of the
          reconciliation is performed, the Office of the Chief Financial Officer (OCFO) and the FEMA
          program offices address the issue of how the funds are allocated. We note that the Budget
          Manual does not indicate the procedures that need to be taken to reconcile the actual
          committed, obligated, and expended amounts to the appropriate amounts per the GL.
       �	 No clear documentation evidences the Monthly Spend Plan Reconciliations or the review
          thereof. Management was not able to provide support for reconciliations performed, or any
          evidence of their final review other than the posting of them on the FEMA intranet.

       Recommendations:
       We recommend that FEMA revise SOPs, including appropriate internal controls, over the
       preparation and review of the Monthly Spend Plan Reconciliation to ensure that:
       �	 Actions performed by contractors are properly monitored.
       �	 A consistent process is established to reconcile information in the Monthly Spend Plan
           Reconciliation to the GL.
       �	 Proper review of the Monthly Spend Plan Reconciliation is performed prior to its posting on
           the FEMA intranet.

FMC 11-10 – Deficiencies Identified in the General Ledger Chart of Accounts and Transaction
Codes (NFR No. FEMA 11-18)

       Based on our review of FEMA’s FY 2011 general ledger chart of accounts as of June 30, 2011,
       we noted six accounts that were included in the GL chart of accounts and were active, but they
       were not included in the 2011 United States Government Standard General Ledger (USSGL)
       chart of accounts.

      Based on our testwork performed over a sample of 32 transaction code (T-code) numbers and 248
      total T-code transactions as of June 30, 2011, we noted that 9 of the 248 total T-code transactions
      selected for testwork were not in compliance with the USSGL.

       Recommendations:
       We recommend that FEMA:
       �	 Perform additional research to determine how to de-activate the identified accounts through
          the general ledger. If prior year accounts are necessary to post beginning balances, develop
          and implement procedures to ensure accounts are deactivated timely once beginning balances
          are recorded.
       �	 Develop a comprehensive T-code crosswalk to determine whether general ledger T-codes are
          in compliance with the USSGL and why some T-codes deviate from the USSGL.



                                                   6

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2011



FMC 11-11 – Improvements Needed in Review and Recording of Year-end Mission Assignment
Accrual (NFR No. FEMA 11-19)

      FEMA attempted to perform a validation of the estimated June 30, 2011 MA accounts payable
      accrual to determine the accuracy and reliability of the estimate. However, during our review of
      the validation, we noted that the validation was not effective as FEMA compared all
      reimbursement requests received in the fourth quarter of FY 2011 to the accrual balance as of
      June 30, 2011. For comparison purposes, the reimbursement requests received in the fourth
      quarter of FY 2011 used to validate the accrual should only include the requests received for
      services and/or expenses incurred prior to July 1, 2011.

       In addition, FEMA does not review and analyze the accrual by OFA prior to recording the
       accrual to ensure that validity and reasonableness of each accrual.

      Recommendations:
      We recommend that FEMA:
      �	 Develop and implement procedures to compare the MA accounts payable accrual estimates to
         the actual expenses incurred, communicate with OFAs on discrepancies noted to make
         estimation improvements in the future, and reassess the process to develop the estimate as
         necessary. The verification and validation should be documented and properly reviewed.
      �	 Thoroughly review MA accounts payable accrual supporting documentation for
         reasonableness prior to recording amounts reported by OFAs, and exercise timely
         communication with OFAs on any discrepancies noted to prevent an intragovernmental
         reconciliation problem.

FMC 11-12 – Improvements Needed in Management’s Review of Grant Data and Automated
Reconciliations in Grant Accrual Models (NFR No. FEMA 11-22)

      Our review of Legacy FEMA’s implemented grant accrual process (generally for disaster and
      non-preparedness grants) revealed the following deficiencies within the process as of June 30,
      2011:
      �	 The legacy FEMA grant accrual model tab did not properly include PIN D3512 in the
         calculation of the accrual. As a result, the legacy FEMA grant accrual advance was
         understated by $1,159,221. As the exclusion was not identified in the review of the inputs
         and outputs of the model, the controls were not operating effectively.
      �	 A discrepancy between the Ending Cash on Hand (ECOH) reported in the accrual model data
         and the ECOH per the SF-272 SmartLink report was identified. A one-cell shift in the ECOH
         column in the accrual model data caused this discrepancy. Although we determined the
         ECOH column does not feed into any model inputs or outputs, and there was no substantial
         effect related to the shift of the column, a control-based exception was recognized for
         insufficient review and approval of the inputs and outputs of the model.
      �	 Variances between estimated and actual advances and liabilities that exceed the acceptable
         variance range (AVR) thresholds established by FEMA policies were not adequately
         addressed. The advance variances at December 31, 2010 and March 31, 2011 were $35
         million and $30.7 million respectively. Additionally, liability variances at September 30,
         2010, December 31, 2010, and March 31, 2011, were $143.4 million, $91.5 million, and



                                                  7

                        Federal Emergency Management Agency
                           Financial Management Comments
                                  September 30, 2011


    $64.6 million respectively. These discrepancies fell outside the target error rate for the
    advance and liability estimates for the legacy FEMA grant accrual. Furthermore, FEMA
    noted that management review of the AVR is only completed annually, and it is a process that
    continues to be under review.

Our review of Legacy FEMA’s implemented grant accrual process revealed the following
deficiencies within the process as of September 30, 2011:
�	 A discrepancy between the ECOH reported in the accrual model data and the ECOH per the
    SF-272 SmartLink report was identified, similar to the issue noted as of June 30, 2011.
�	 Variances between estimated and actual advances and liabilities that exceed the AVR
    thresholds were not adequately addressed. The advance variance at June 30, 2011 was $46.7
    million, which exceeded the AVR.

Our review of FEMA’s Grants and Training (G&T) grant accrual process revealed the following
deficiency within the process as of June 30, 2011:
�	 The Journal Voucher (JV) to record the liability allocation for fund code T8 was initially
    recorded for the wrong amount of $72.6 million. The entry was subsequently reversed and
    FEMA then posted the correct balance in a new JV. As the review and approval of the
    original JV was not properly performed, the control was not operating effectively.

Our review of FEMA’s G&T grant accrual process revealed the following deficiencies within the
process as of September 30, 2011:
�	 The September 30, 2011 grant accrual returned a $3.5 million advance and $50.9 million
    liability for fund T6. As fund T6 (State and Local Programs) was cancelled at September 30,
    2011, FEMA reallocated the advance and liability from fund T6 to funds T0, T7, T8, T9, and
    E0. We determined that the reallocation of advances ($294,604) and liabilities ($4.3 million)
    related to fund T6 (State and Local Programs) to fund E0 (Emergency Management
    Performance Grants) was not proper as the funds are not used for the same purpose. As the
    reallocation was not properly reviewed, the control was not operating effectively.

At June 30, 2011 and September 30, 2011, FEMA recorded all grant related payables in USSGL
account 2110. Per the USSGL T-code B402 which states "Record USSGL account 2190 for
grants payable", FEMA is not in compliance with USSGL.

Recommendations:
We recommend that FEMA:
�	 Conduct training to ensure that the individuals responsible for preparing and reviewing the
   grant accrual clearly understand their roles and responsibilities for the preparation and review
   of the grant accruals.
�	 Review and conduct follow-up related to unusual advance and liabilities balances reported by
   grantees.
�	 Review and resolve large variances between estimated and actual advances and liabilities.
�	 Conduct training to ensure grantees understand the SF-425 form and complete it properly.
�	 Record grant related payables in USSGL account 2190.




                                            8

                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2011



FMC 11-13 – Issues Identified in Journal Voucher (JV)Testwork (NFR No. FEMA 11-23)

       Journal Voucher Population Completeness as of March 31, 2011:
       To determine the completeness of the JV population as of March 31, 2011, we obtained a roll-
       forward of all financial activity from October 1, 2010 (period 00) to March 31, 2011 (period 06)
       from FEMA.

       Based on this testwork, we noted two of thirteen of March 31, 2011 Treasury Information
       Executive Repository (TIER) adjustments were not fully researched prior to submitting them into
       the DHS TIER repository.

       Journal Voucher Population Completeness as of June 30, 2011:
       To determine the completeness of the JV population as of June 30, 2011 we obtained a roll-
       forward of all financial activity from March 31, 2011 (period 06) to June 30, 2011 (period 09)
       from FEMA.

       Based on this testwork, we noted two of fifteen June 30, 2011 TIER adjustments were not fully
       researched prior to submitting them into the DHS TIER repository.

       Journal Voucher Population Completeness as of September 30, 2011:
       To determine the completeness of the JV population as of September 30, 2011, we obtained a
       roll-forward of all financial activity from June 30, 2011 (period 09) to September 30, 2011
       (period 12) from FEMA.

       Based on this testwork, we noted three of seven September 30, 2011 TIER adjustments were not
       fully researched prior to submitting them into the DHS TIER repository.

       Journal Voucher Testing as of March 31, 2011:
       Based on our JV dual purpose testwork as of March 31, 2011, we noted that 1 of 52 JV sample
       items did not reflect the underlying events and transactions.

       Based on our control testwork as of March 31, 2011, we noted that 13 of 52 JV were corrections
       of previous JVs that should not have been necessary if the original entry was properly reviewed
       and approved to determine if the attribute, fiscal year, and GL accounts were proper and agreed
       from the hard copy Microsoft Excel template to the GL entry.

       Journal Voucher Testing as of June 30, 2011:
       Based on our JV dual purpose testwork as of June 30, 2011, we noted that for 2 of 38 JV sample
       items the original entry was posted in December 2010 to the incorrect budget fiscal year. We
       determined the correcting entry was not posted until June 2011, which we do not consider to be
       timely corrections.

       Based on our control testwork as of June 30, 2011, we noted that 3 of 38 JV were corrections of
       previous JVs that should not have been necessary if the original entry was properly reviewed and
       approved to determine if the attribute, fiscal year, and GL accounts were proper and agreed from
       the hard copy Microsoft Excel template to the GL entry.



                                                   9

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2011


      Journal Voucher Testing as of September 30, 2011:
      Based on our JV dual purpose testwork as of September 30, 2011, we noted that 1 of 54 JV
      sample items did not reflect the underlying events and transactions.

      Based on our control testwork as of September 30, 2011, we note 3 of 54 JV were corrections of
      previous JVs that should not have been necessary if the original entry was properly reviewed and
      approved to determine if the attribute, fiscal year, and GL accounts were proper and agreed from
      the hard copy Microsoft Excel template to the GL entry.

      Federal/Intra-agency/Non-Federal (F/I/N) Attributes:
      To address the incorrect federal/intra-agency/non federal (F/I/N) attributes within the GL for
      purposes of the TIER submissions throughout FY 2011, FEMA adjusted intra-agency (‘I’)
      amounts and recorded them in selected G&T funds in TIER. For example, we observed that
      FEMA calculated the adjustment amounts based on the difference between USSGL elimination
      pairs (e.g., USSGL accounts 1410 – Advances and Prepayments and 2310 – Liability for
      Advances and Prepayments), increased/decreased the intra-agency amount for one side of the
      elimination pair, and applied the adjustment to a selected G&T fund. No documentation existed
      to support the reasonableness of these adjustments.

      Temporary Housing Unit (THU) Transactions:
      FEMA recorded several entries throughout the year based on improper guidance provided by
      DHS OFM. FEMA reversed correct entries and posted improper entries based on DHS OFM
      guidance, which lead to an abnormally large number of JVs relating to THUs. FEMA corrected
      these entries by year-end.

      Recommendations:
      We recommend that FEMA:
      �	 Dedicate sufficient resources to ensure JVs are thoroughly researched, reviewed, and
         approved prior to entering them in the general ledger or adjusting the TIER files.
      �	 Dedicate sufficient resources to ensure that all F/I/N attributes are reviewed and corrected in
         a timely manner.
      �	 Work with DHS OFM to develop a formal policy/procedure to resolve disagreements with
         DHS OFM relating to proper accounting treatments.

FMC 11-14 – Compliance with the Prompt Payment Act (NFR No. FEMA 11-24)

      Based on our testwork performed over a sample of 85 payments made during FY 2011, we noted
      one Prompt Payment Act exception. For this transaction, the goods were received on the same
      day as the invoice. However, FEMA did not make the vendor payment within the required time
      period (within 30 days of the receipt of the invoice) or pay the required interest penalty for this
      late payment.

      Recommendations:
      We recommend that FEMA:
      �	 Develop a monitoring control to ensure adherence to existing prompt payment policies and
         procedures for all applicable payment activities.
      �	 Provide additional training to ensure invoices are entered into the general ledger timely and
         the payment due date is entered correctly.


                                                  10

                               Federal Emergency Management Agency
                                  Financial Management Comments
                                         September 30, 2011


FMC 11-15 – Deficiencies in Verification and Collection of Performance Measurement Data for the
Annual Financial Report’s (AFR) Management’s Discussion and Analysis (NFR No. FEMA 11-26)

       In the FY 2011 DHS AFR, information for four performance measurements was provided from
       FEMA’s program offices. We noted the following conditions for two of these performance
       measurements:
       �	 “Percent of time that critical communications for response operations are established within
            12 hours” - A complete population of the supporting documentation could not be provided.
            From the few items that were provided, we noted that the supporting documentation could not
            be used to objectively verify the performance measurement percentage in the AFR.
       �	 “Percent of orders for required life-sustaining commodities (meals, water, tarps, plastic
            sheeting, cots, blankets, and generators) and key operational resources delivered by the
            agreed upon date” - The incorrect performance measurement percentage (96%) was
            submitted to the Office of Policy and Program Analysis, which was the number submitted for
            the AFR. This incorrect percentage did not match the underlying data provided by the
            program, which supported a percentage of 93%.

       Recommendations:
       We recommend that FEMA:
       �	 Develop and implement a process to ensure that performance measures can be objectively
          tracked, calculated, and verified.
       �	 Develop and implement a review process to validate the data and the performance
          measurement calculations prior to submission to DHS.

FMC 11-16 – Deficiencies in the Legacy FEMA Grant Accrual Methodology (NFR No. FEMA 11­
27)

      During the preparation of the June 30, 2011 legacy FEMA grant accrual, FEMA determined it
      appropriate to exclude BOC 4310, Educational Stipends, from the grant accrual model data
      extraction. However, FEMA did not properly update its SOP to note the exclusion of BOC 4130
      as of June 30, 2011. A new SOP was put in place in September 2011.

       Recommendation:
       No recommendation is necessary as FEMA remediated the condition by September 30, 2011.

FMC 11-17 – Deficiencies over the NFIP Treasury Information Executive Repository JV
Adjustments (NFR No. FEMA 11-28)

       In conjunction with our testwork of FEMA’s JVs to record NFIP activity as of September 30,
       2011, and review of the FY 2011 DHS AFR, we noted the following:
       �	 FEMA did not include USSGL account 1190, in the amount of $33.1 million, in the
           calculation for the budgetary entry to reconcile budgetary cash to proprietary cash. The
           exclusion of this account in the calculation is inappropriate, as account 1190 should be
           included to ensure budgetary cash balances with proprietary cash.
       �	 FEMA calculated its budget entries related to contractor-submitted expenses based on
           proprietary entries which are estimated by the third party service provider. FEMA used the
           entries to post the correct budgetary entries to the GL. Budgetary entries are automatically
           calculated and recorded for all other expenses not submitted by a contractor. FEMA was


                                                  11

                              Federal Emergency Management Agency
                                 Financial Management Comments
                                        September 30, 2011


          unable to explain a $682.7 million difference between proprietary expenses and budgetary
          expenses.

       Recommendations:
       We recommend that FEMA:
       �	 Review, update and reissue SOPs for the recording of NFIP financial statement information
          into the FEMA GL to include USSGL account 1190 in the calculation for the budgetary entry
          to reconcile budgetary cash to proprietary cash.
       �	 Develop, document, and implement a method to identify differences between proprietary and
          budgetary accounts in 70X4236 and assess if the differences identified are reasonable.

FMC 11-18 – Lack of Communication Regarding the Existence of the DHS Office of Inspector
General Fraud Hotline (NFR No. FEMA 11-29)

      In order to test the operating effectiveness of the DHS OIG Hotline at FEMA, we inquired of two
      personnel within the Financial Statements and Reporting Branch and one person in the Risk
      Management Branch under the OCFO. None of them were aware of the existence of the hotline
      or its purpose.

       Recommendation:
      We recommend that FEMA management improve communications to their employees regarding
      the existence of the DHS OIG Hotline, its importance, and the situations in which the hotline
      should be used.




                                                 12

                                                                                                       Appendix A
                              Federal Emergency Management Agency
                     Crosswalk - Financial Management Comments to Active NFRs
                                         September 30, 2011


                                                                                        Disposition1
                                                                                      IAR                 FMC
NFR No.                                Description                               MW    SD         NC       No.
 11-01    Ineffective Controls over Processing Mission Assignments (MAs)          E
          Deficiencies in Development and Application of Policies Related to
 11-02    the Non-Grant, Non-MA, Non-System-Generated Accounts Payable                                    11-01
          Accrual
          Non-Compliance with 5 CFR Part 2638 and 5 CFR Part 2638
 11-03                                                                                 F
          Related to Ethical Requirements
 11-04    Inability to Closeout Assistance to Firefighter Grants (AFG)                                    11-02
 11-05    Deficiencies in Development of MA Policies and Procedures                                       11-03
 11-06    Ineffective Controls over Processing and Monitoring Obligations        E
          Incomplete Implementation of Controls over the Recording of
 11-07                                                                           E
          Funding Transactions
          Lack of Certain Documentation Related to Compliance with the
 11-08                                                                                                    11-04
          Improper Payments Elimination and Recovery Act of 2010
 11-09    Ineffective Controls over Tracking Grants Eligible for Close-out             H
 11-10    Financial Monitoring of Grants by the Grant Programs Directorate             H         L
 11-11    Inability to Link Systems to Significant Grant Programs                                         11-05
          Deficiencies in the Preparation and Review of the Government
 11-12    Accountability Office (GAO) Financial Audit Manual (FAM) 2010                                   11-06
          – Checklist for Federal Accounting
          Monitoring of Audit Findings in Accordance with Office of
 11-13    Management and Budget (OMB) Circular Nos. A-133 and A-50, and                H         L
          Related Compliance Matters
          Inaccuracy of Claims’ Loss Reserves at Selected Insurance
 11-14    Companies that Participate in FEMA’s National Flood Insurance                                   11-07
          Program (NFIP)
          Internal Control Deficiencies over Claims Paid at Selected Insurance
 11-15                                                                                                    11-08
          Companies that Participate in FEMA’s NFIP
 11-16    Lack of Formal Policies and Procedures in Various Areas                      F
          Deficiencies in the Monthly Spend Plan Reconciliation Preparation
 11-17                                                                                                    11-09
          Process
          Deficiencies Identified in the General Ledger Chart of Accounts and
 11-18                                                                                                    11-10
          Transaction Codes
          Improvements Needed in Review and Recording of Year-end MA
 11-19                                                                                                    11-11
          Accrual
 11-20    Ineffective Controls over Grants Management                                  H
          Budgetary Accounting Issues Identified in Journal Voucher (JV)
 11-21                                                                           E
          Testwork Through September 30, 2011
          Improvements Needed in Management’s Review of Grant Data and
 11-22                                                                                                    11-12
          Automated Reconciliations in Grant Accrual Models
 11-23    Issues Identified in JV Testwork through September 30, 2011                                     11-13
 11-24    Compliance with the Prompt Payment Act                                                          11-14
          Improper Processing and Untimely De-Obligation of Undelivered
 11-25                                                                           E
          Orders (UDOs)
          Deficiencies in Verification and Collection of Performance
 11-26    Measurement Data for the Annual Financial Report’s Management’s                                 11-15
          Discussion and Analysis
 11-27    Deficiencies in the Grant Accrual Methodology                                                   11-16
          Deficiencies over the NFIP Treasury Information Executive
 11-28                                                                                                    11-17
          Repository (TIER) JV Adjustments



                                                         13

                                                                                                                 Appendix A
                                  Federal Emergency Management Agency
                         Crosswalk - Financial Management Comments to Active NFRs
                                             September 30, 2011


                                                                                                  Disposition1
                                                                                                IAR                  FMC
    NFR No.                             Description                                  MW          SD         NC        No.
              Lack of communication regarding the existence of the Department of
     11-29                                                                                                           11-18
              Homeland Security Office of Inspector General Fraud Hotline
1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated November 11, 2011
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Fund Balance with Treasury
H         Grants Management
I         Custodial Revenue and Drawback
J         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
K         Federal Financial Management Improvement Act of 1996 (FFMIA)
L         Single Audit Act Amendments of 1996
M         Chief Financial Officers Act of 1990 (CFO Act)
N         Antideficiency Act, as amended (ADA)
O         Government Performance and Results Act of 1993 (GPRA)




                                                              14

                                                                                                         Appendix B
                                 Federal Emergency Management Agency
                                        Status of Prior Year NFRs
                                           September 30, 2011

                                                                                                   Disposition1
                                                                                                          Repeat
NFR No.                                     Description                                      Closed2
                                                                                                     (2011 NFR No.)
          Internal Control Deficiencies over Claims Paid at Selected Insurance Companies
 10-01                                                                                                FEMA 11-15
          that Participate in FEMA’s NFIP
          Internal Control Deficiencies over Claims Paid at Selected Insurance Companies
10-01a                                                                                                FEMA 11-15
          that Participate in FEMA’s NFIP
          Inaccuracy of Claims’ Loss Reserves at Selected Insurance Companies that
 10-02                                                                                                FEMA 11-14
          Participate in FEMA’s NFIP
          Inaccuracy of Claims’ Loss Reserves at Selected Write Your Own Insurance
10-02a                                                                                                FEMA 11-14
          Companies that Participate in FEMA’s NFIP
 10-03    Lack of Formal Policies and Procedures in Various Areas                                     FEMA 11-16
          Non-Compliance with 5 CFR Part 2638 and 5 CFR Part 2638 Related to Ethical
 10-04                                                                                                FEMA 11-03
          Requirements
          Internal Control Deficiencies Identified over Premiums Written at Selected
 10-05                                                                                         X
          Insurance Companies that Participate in FEMA’s NFIP
          Internal Control Deficiencies Identified over Premiums Written at Selected
10-05a                                                                                         X
          Insurance Companies that Participate in FEMA’s NFIP
 10-06    Deficiencies in the Budget Execution Report Preparation Process                             FEMA 11-17
          Deficiencies in Development and Application of Policies Related to the Non-
 10-07                                                                                                FEMA 11-02
          Grant, Non-MA, Non-System-Generated Accounts Payable Accrual
          Control Deficiencies and Underlying Data Deficiencies Related to the Non-Grant,
 10-08                                                                                         X
          Non-MA, Non-System-Generated Accounts Payable Accrual
          Deficiencies in the Preparation and Review of the GAO Financial Audit Manual
 10-09                                                                                                FEMA 11-12
          FAM 2010 – Checklist for Federal Accounting
          Inherited Problems in Legacy Grants and Training’s (G&T) General Ledger and
 10-10    Other Issues Noted in the TIER to General Ledger Reconciliation as of June 30,              FEMA 11-23
          2010
          Control Deficiencies Noted in the Financial Reporting Environment as of March
 10-11                                                                                         X
          31, 2010
          Insufficient Office of the Chief Financial Officer Review of FEMA’s Legal
 10-12                                                                                         X
          Liability and Related Disclosure
          Deficiencies Identified in the General Ledger Chart of Accounts and Transaction
 10-13                                                                                                FEMA 11-18
          Codes
 10-14    Ineffective Controls over Processing Obligations                                            FEMA 11-06
 10-15    Deficiencies in Development of MA Policies and Procedures                                   FEMA 11-05
                                                                                                      FEMA 11-01
 10-16    Ineffective Controls over Processing and Monitoring MAs
                                                                                                      FEMA 11-01a
 10-17    Improvements Needed in Review and Recording of Year-End MA Accrual                          FEMA 11-19
 10-18    Financial Monitoring of Grants by the Former Office of G&T                                  FEMA 11-10
 10-19    Ineffective Controls over Grants Management                                                 FEMA 11-20
          Lack of Certain Documentation Related to Compliance with the Improper
 10-20                                                                                                FEMA 11-08
          Payments Information Act of 2002, as amended
 10-21    Budgetary Accounting Issues Identified JV Testwork through June 30, 2010                    FEMA 11-21
          Budgetary Accounting Issues Identified JV Testwork from July 1, 2010 through
10-21a                                                                                                FEMA 11-21
          September 30, 2010
 10-22    Inability to Link Systems to Significant Grant Programs                                     FEMA 11-11
          Failure to Identify and Assess Accounting Policies / Practices Not In Accordance
 10-23                                                                                         X
          with Generally Accepted Accounting Principles
          Improvements Needed in Management’s Review of Grant Data and Automated
 10-24                                                                                                FEMA 11-22
          Reconciliations in Grant Accrual Models
          Deficiency Identified Related to the Preparation and Review of the Retrospective
 10-25                                                                                         X
          Reserve Analysis
 10-26    Issues Deficiencies Identified in JV Testwork through June 30, 2010                         FEMA 11-23
          Issues Deficiencies Identified in JV Testwork from July 1, 2010 through
10-26a                                                                                                FEMA 11-23
          September 30, 2010
          Monitoring of Audit Findings in Accordance with OMB Circular No. A-133 and
 10-27                                                                                                FEMA 11-13
          No. A-50, and Related Compliance Matters



                                                          15

                                                                                                                   Appendix B
                                       Federal Emergency Management Agency
                                              Status of Prior Year NFRs
                                                 September 30, 2011

                                                                                                          Disposition1
                                                                                                                 Repeat
    NFR No.                                        Description                                      Closed2
                                                                                                            (2011 NFR No.)
      10-28     Lack of Supporting Documentation for Prompt Payment Sample Item                               FEMA 11-24
                Deficiency in the Methodology Used to Calculate the Non-Current Portion of the
      10-29                                                                                            X
                Insurance Liability Estimate
      10-30     Failure to Close Assistance to Firefighter Grants Timely                                        FEMA 11-04
      10-31     Deficiencies over the NFIP TIER JV Adjustments                                                  FEMA 11-28
                Untimely De-Obligation of UDOs and Accounting for Public Assistance Grant
      10-32                                                                                                     FEMA 11-25
                Arbitration Cases in fiscal year 2010

1
 KPMG was engaged to perform an audit over the DHS balance sheet and statement of custodial activity as of and for the year
ended September 30, 2011, and was not engaged to perform an audit over the statement of net cost, statement of changes in net
position, and statement of budgetary resources for the year ended September 30, 2011. In addition, we were engaged to follow-
up on the status of all active NFRs that supported significant deficiencies reported in our FY 2010 Independent Auditors’ Report.

2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                                 16

Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Financial Officer
                      Chief Information Officer

                      Federal Emergency Management Agency

                      Administrator
                      Chief Financial Officer
                      Chief Information Officer
                      Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
